                              CLOSEOUT FOR M-94100035

       In December 1994 OIG learned that the Office                            in the Department
                                                                             a faculty member at
                                                                              'tted lnisconduct in
                                                                               redentials in three
Public Health Service (PHs) proposals when she indicated she had an MD degree that she did not
have. The subject executed a Voluntary Exclusion and Settlement Agreement with PHs in which she
agreed to neither apply for Federal hnds nor serve on PHS's advisory committees, boards, or peer
review groups for three years.

          G found that the subject had submitted two proposals to       andm an dm
              of which were fbnded, and that she had served as a reviewer once in 1988.

         OIG reviewed the subject's two NSF-funded proposals to determine if she had misrepresented
her credentials to NSF. OIG determined that the subject has, in fact, received the educational degrees
she listed in her Biographical Sketches in these NSF proposals. OIG noted that the subject provided
some incorrect information in her Biographical Sketches, such as the date she received her Bachelor of
Science degree. However, the incorrect information was not germane to her receipt of either award.

         OIG noted that one of the award jackets contained two letters written by the subject to
program officers on which she had indicated below her signature that she was an "MD Ph.D." One
letter accompanied the subject's annual progress report and the other letter requested supplementary
hnding. The supplementary hnding was not granted.

        OIG determined that the subject's misrepresentations to NSF with her proposals were minor
and gained her no apparent advantage. The subject's pattern of misrepresenting information in
applications for Federal support suggested the need to protect Federal hnds from possible hture
abuses. OIG concluded that PHS's actions effectively prevented the subject from receiving, or
benefitingfrom, Federal support for three years and therefore adequately protected Federal funds.

       This inquiry was closed and no hrther action will be taken

cc.: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                                  -
                                        Page 1 of 1
